-

No.

20-7650

In The

Supreme Court of tfie ®niteb ££>tate$

In re BO ZOU

—PETITIONER

vs.

LINDE ENGINEERING NORTH AMERICA. INC. —RESPONDENT

ON PETITION FOR A WRIT OF PROHIBITION TO
THE UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

REPLY BRIEF FOR PETITIONER

BO ZOU
4920 S Yorktown Avenue, #122
Tulsa, OK 74105
Phone: 713-835-8655

QUESTION PRESENTED

May Respondent and Respondent’s counsels be blatantly in contempt of this
Court and the lower courts by concealing Respondent’s two parent corporations
LINDE PLC and LINDE ENGINEERING US LLC since November 25, 2019?

TABLE OF CONTENTS

REPLY BRIEF FOR PETITIONER

1

1. Respondent should be sanctioned by this Court
due to Respondent’s blatant contempt

1

2. Petitioner cannot get any relief from the lower
courts unless this Court issue a Writ of Prohibition
3. New facts for magistrate judge’s abuse of discretion

3
5

4. Respondent’s Brief in Opposition should be
disregarded and ignored by this Court

6

5. Respondent knowingly misleads this Court by distorting
Petitioner’s points and factual evidence
CONCLUSION

8

12

INDEX TO APPENDICES

APPENDIX F: Respondent’s CORPORATE DISCLOSURE STATEMENT filed to the
district court on November 25, 2019.
APPENDIX G: The Subsidiaries of Linde PLC filed to the United States Securities and
Exchange Commission (“SEC”) by Linde PLC on March 1, 2021.
(Showing Respondent is one of Subsidiaries of Linde PLC)

APPENDIX H: Respondent’s another CORPORATE DISCLOSURE STATEMENT in
another discrimination case 4:19-cv-00502-JED-JFJ filed to the same
district court by another law firm GableGotwals on December 17, 2019.

TABLE OF AUTHORITIES CITED

CASES
JeffD. v. Otter
643 f. 3d 278 (9th Cir. 2011),

PAGE NUMBER

,7

STATUTES AND RULES

28 U.S. Code § 1651(a)

,4

28 U.S.C. § 455 (a),

.8

28 U.S. Code § 636 (e)(4)

6

28 U.S. Code § 636 (b)(1)(A),
Fed. R. Civ. P. 30(a)
Fed. R. Civ. P. 33(a)(1)

11
6
11

Fed. R. Civ. P. 65(b)

6

SUP. CT. R. 5.4,

3

OTHER
Code of Conduct for United States Judges Canon 3A(4)
LCvR36.1

1, 6,7
11

REPLY BRIEF FOR PETITIONER
Petitioner hereby respectfully submits the reply brief for new points and facts in support
of his Petition for Writ of Prohibition.
Moreover, Petitioner respectfully requests this Court to sanction Respondent and
Respondent counsels’ blatant contempt of this Court by concealing Respondent’s two parent
corporations in its DISCLOSURE STATEMENT filed to this Court on May 3, 2021.
Furthermore, Respondent filed its Brief in Opposition to mislead this Court by distorting
Petitioner’s points and factual evidence, which satisfy magistrate judge’s disqualification.
Respondent asserted that Petitioner’s requests for a writ of prohibition are only based on
Petitioner’s disagreement with the magistrate judge’s rulings on various discovery—related
motions. It’s knowingly misleading to this Court.
Petitioner’s Writ of Prohibition to disqualify magistrate judge is based on magistrate
judge’s misconduct in actively initiating ex parte communication with Respondent in violation
of Code of Conduct for United States Judges Cannon 3A(4); in asking Respondent to provide
her extra other documents in Camera; in abusing her discretion and usurping judicial
authority; and in openly guiding and helping Respondent to sanction Petitioner and restrict
Petitioner’s legal right, etc.; not based on Petitioner’s disagreement with magistrate judge’s
rulings.
Except the indisputable and irrefutable factual evidence and facts provided in Petitioner’s
Writ of Prohibition, Petitioner provides following new points and facts in support of
Petitioner’s Writ of Prohibition.
1. Respondent should be sanctioned by this Court due to Respondent’s blatant contempt.
Except being in contempt of the court by refusing to produce documents RFP 2, 3, 4, 6, 7,
21, 26, Respondent,is also in contempt of this Court and the lower courts as follows:
(1). Respondent has been blatantly in contempt of this Court and the lower courts by

1

concealing

Respondent’s

two

parent

corporations

in

Respondent’s

CORPORATE

DISCLOSURE STATEMENT since November 25, 2019.
In Respondent’s DISCLOSURE STATEMENT filed to this Court on May 3, 2021,
Respondent stated:
“it is a wholly owned subsidiary of Linde Holdings, LLC.
There are no publicly held corporations that own ten percent
or more of Respondent Linde Engineering North America
LLC’s or Linde Holdings, LLC’s stock”.
The false statement is the same as that in Respondent’s CORPORATE DISCLOSURE
STATEMENT filed to the district court on November 25, 2019, i.e. Respondent is only wholly
owned subsidiary of Linde Holdings, LLC. See APPENDIX “F”, a32.
However, except Linde Holdings, LLC, LINDE PLC and LINDE ENGINEERING US
LLC are Respondent’s parent corporations, too. The evidence is got from (a) the subsidiaries of
Linde PLC filed to the United States Securities and Exchange Commission (“SEC”) by Linde
PLC on March 1, 2021. See APPENDIX “G”, a36; (b) Respondent’s another discrimination
case in the same district court and around the same period. See APPENDIX “H”, a37.
Linde PLC, one of Respondent’s parent corporations, is registered with the United States
Securities and Exchange Commission (“SEC”) and traded on the New York Stock Exchange
(“NYSE”) under the ticker symbol “LIN”. From the document “SUBSIDIARIES OF LINDE
PLC”, this Court can clearly see Respondent (Linde Engineering North America LLC) is one
of the subsidiaries of Linde PLC. See APPENDIX “G”, a36.
Respondent and its counsels have knowingly and willfully concealed the information and
provided improper CORPOATE information to the court since the beginning of the case.
Until now, Petitioner don’t know whether there are any judges from the lower courts to
this Court, who have interest confliction with two undisclosed corporations, such as owning the
stocks of Linde PLC, to involve in this case. It’s necessary and appropriate for this Court to

2

sanction Respondent and Respondent’s counsels blatantly in contempt of this Court and the
lower courts, including disbarring Respondent’s counsels from the practice of law in this Court
because Respondent’s counsels violate Rule 5.4 of this Court, which requires the counsels to
sign oaths or affirmation. Respondent and Respondent’s counsels should be sanctioned by this
Court due to Respondent’s blatant contempt of this Court and the lower courts.
Also, it’s necessary and appropriate for this Court to directly grant Petitioner the Writ of
Prohibition based on Respondent’s blatant contempt of this Court, and Petitioner’s four
genuine questions concerning magistrate judge’s impartiality.
(2). Respondent changed its legal name to Linde Engineering North America, LLC on
March 18, 2020. See Dkt. No. 151, EXHIBIT “8”. Since then, Linde Engineering North
America, Inc. has not existed in the United States. But, Defendant never reports to the district
court and corrects its legal name. So, Linde Engineering North America, Inc., the non-existing
company, has being sued in this lawsuit. Although Petitioner showed Respondent’s contempt
of the district court by using non-existing legal name in the case on January 21, 2021,
Respondent has been refusing to file a notice to the district court to correct its legal name. The
district court neither order Respondent to change its legal name, nor sanction on Respondent’s
contempt.
Based on the forgoing facts, Respondent and counsels should be sanctioned by this Court.
2. Petitioner cannot get any relief from the lower courts unless this Court issue a Writ of
Prohibition.
(1). There is no other adequate means for Petitioner to attain relief.
(a). In the Petition for Writ of Prohibition, Petitioner has shown this Court that
magistrate judge knowingly abused her discretion and usurped judicial authority to help and
protect Respondent’s guilt, crime, contempt and copyright infringement, etc. Magistrate
judge’s deeds have directly affected the findings because Respondent violated the court order
and refused to produce documents without sanctioning under magistrate judge’s protection.
3

Moreover, Respondent only produced three (3) requests for production of documents, rather
than ten (10) requests ordered by magistrate judge. The discovery fails because Petitioner
cannot get the evidence Petitioner should have got due to magistrate judge’s injunctions and
her protection to Respondent’s guilt, crime and contempt. Further, since September 21, 2020,
the discovery of this case has actually been terminated by magistrate judge’s injunctions,
which prohibit Petitioner from filing any further requests for discovery.
(b). Magistrate judge’s deeds will directly affect the sentence because Respondent may be
in contempt of the court to refuse to produce any documents without sanctioning. Also,
Respondent may continue falsifying documents and submitting to the court without
sanctioning. Magistrate judge made fair judgment impossible.
(c). The Tenth Circuit disregarded, ignored and never addressed the facts and factual
evidence, and prohibition criteria, which satisfy the requirements to disqualify magistrate
judge Jodi F. Jayne. Petitioner cannot attain relief from the Tenth Circuit, or in any other
form. Petitioner must seek a writ of prohibition from this Court to correct the alleged abuse of
discretion, and usurpation of judicial authority, etc. and ensure the lawsuit is ruled impartially.
(2). The right to issuance of the writ is clear and indisputable.
Under 28 U.S. Code § 1651(a), this Court has the right and power to issue a writ of
Prohibition to prohibit magistrate judge from Petitioner’s case in any further proceedings due
to her misconduct, her abuse of discretion and usurpation of judicial authority, etc. because
Petitioner cannot attain relief from the lower courts, or in any other form.
(3). The issuance of the writ is appropriate under the circumstances.
It is necessary and appropriate for this Court to correct the alleged abuse of discretion,
usurpation of judicial authority, etc. to ensure laws to be respected and abided by, and
correctly practiced at the district court. Also, it is necessary and appropriate for this Court to
issue a writ of prohibition to prohibit magistrate judge from continuing knowingly abusing her
discretion, usurping judicial authority, breaking laws and her oaths to help and protect
4

Respondent. Otherwise, other judges in U.S.A. may knowingly abuse their discretion, usurp
judicial authority, and break laws and their oaths without disqualifying based on this case.
3. New facts for magistrate judge’s abuse of discretion.
(1). On July 31, 2020, Petitioner filed the motion to compel for production of documents
and sanction on Respondent’s perjury and falsification on documents. See Dkt. No. 86.
On August 6, 2020, Petitioner filed the motion for contempt (Dkt. No. 89) because Respondent
refused to produce documents RFP 2, 3, 4, 6, 7, 21, 26, which were ordered twice to produce
by magistrate judge Jodi F. Jayne herself. See APPENDIX “D”, al8, a20, a21; and
APPENDIX “E”, a30 in the Petition for Writ of Prohibition. Petitioner’s two key motions (Dkt.
Nos. 86, 89) can demonstrate Respondent’s perjury and falsification on documents, and
contempt of the court. On August 11, 2020, Respondent filed a motion for a protective order
without any base in law and facts to assert that Petitioner abused motion or discovery requests,
and requested the district court to grant Respondent not responding to Petitioner’s two key
motions. See Dkt. No. 94, Pgs. 6, 7. The next day (08/12/2020), magistrate judge immediately
granted Respondent not answering Petitioner’s two key motions with the pretext to avoid
unnecessary litigation expense without a hearing even though Petitioner requested a hearing
over and over before. In her minute order (Dkt. No. 95), magistrate judge stated:
“For good cause shown and to avoid unnecessaiy litigation
expense, Defendant is excused from filing a response brief
to ECF Nos. 85, 86, and 89. Plaintiff shall respond to
Defendant's Motion for Protective Order (ECF No. 94) by
August 20, 2020. Plaintiff shall not file any further motions
until the Court has ruled on Defendants Motion for Protective Order,”
However, after magistrate judge’s order issued, Respondent filed three (3) motions (Dkt.
Nos. 112, 128, 129) and five (5) response briefs (Dkt. Nos. 106, 120, 122, 133, 147) without
considering avoiding unnecessary litigation expense. In the five response briefs, it’s absolutely
unnecessaiy for Respondent to file four (4) responses briefs (Dkt. Nos. 106, 120, 122, 133)
5

objecting to (a) Petitioner’s objections to four minute orders, and Respondent’s Request for a
Special Discovery Management Order (Dkt. Nos. 100—103, 105); (b) Petitioner’s Motion for
Stay for magistrate judge’s Preliminary Injunctions and other Restriction (Dkt. No. 110);
(c) Petitioner’s objection to magistrate judge’s order (Dkt. Nos. Ill, 114); and (d) Petitioner’s
motion to expedite ruling on Plaintiffs motions (Dkt. No. 127). This Court can see that
so-called avoiding unnecessary litigation expense is only a pretext for magistrate judge to help
and protect Respondent’s perjury, falsification on documents, and contempt of the court.
Also, magistrate judge usurped judicial authority to handle Petitioner’s motion for
contempt (Dkt. No. 89) and stopped proceedings without or in excess of her jurisdictions and
authority in violation of 28 U.S. Code § 636 (e)(4) and Fed. R. Civ. P. 65(b).
(2). Petitioner issued the Notice of Deposition to Respondent for Respondent’s deposition
on June 5, 2020. See Dkt. No. 67, EXHIBIT “3”. Petitioner requested to depose ten (10) fact
witnesses from June 23 to June 26, 2020, in compliance with Fed. R. Civ. P. 30(a) and the joint
status report agreed and granted by both parties on January 8, 2020. See Dkt. No. 16, Pg. 5.
However, Respondent refused the deposition and filed another protective order to request the
district court to limit deposition to four (4) fact witnesses. Magistrate judge granted
Respondent’s requests without a good cause and a hearing in violation of Fed. R. Civ. P. 30(a),
which grants that a party may depose ten (10) fact witnesses without leave of the court, and
the joint status report granted by both parties. Magistrate judge abused her discretion again.
4. Respondent’s Brief in Opposition should be disregarded and ignored by this Court.
(1). Respondent cannot and never answer why magistrate judge may actively initiate ex
parte communication with Respondent in violation of Code of Conduct for United States
Judges Cannon 3A(4), and why magistrate judge may actively ask Respondent to provide her
extra other documents in Camera without disqualifying. Respondent only takes magistrate
judge herself defense as a pretext. But, it is flimsy for anybody to believes her defense because
it is indisputable for magistrate judge to actively initiate ex parte communication with
6

Respondent in violation of Code of Conduct for United States Judges Cannon 3A(4), and ask
Respondent to provide her extra other documents in Camera written clearly on her order.
(2). Respondent cannot and never answer why magistrate judge may abuse her discretion
to help and protect Respondent and Respondent counsels’ guilt and crime in perjury and
falsifying documents on a large scale, and contempt of the court and copyright infringement
without disqualifying. Petitioner has clearly shown this Court that abuse of discretion occurs
when a court does not apply the correct law or if it bases its decision on a clearly erroneous
finding of a material fact. See JeffD. v. Otter, 643 f. 3d 278 (9th Cir. 2011). A court may also
abuse its discretion when the record contains no evidence to support its decision. Magistrate
judge knowingly disregarded, ignored the factual evidence to help and protect Respondent’s
guilt, crime, contempt and copyright infringement. Magistrate judge’s deeds satisfy the
requirements for abuse of her discretion. At the same time, magistrate judge broke law and
her oaths, either.
(3). Respondent cannot and never answer why magistrate judge may usurp judicial
authority to rule on Petitioner’s two motions (Dkt. Nos. 34, 89) and issued temporary
restraining order and issue preliminary injunctions without or in excess of her jurisdictions
and authority without disqualifying.
Petitioner has clearly shown this Court that Writs of Prohibition arrest the proceeding of
any “tribunal, corporation, board or person exercising judicial functions, when such
proceedings are without or in excess of the jurisdiction of such tribunal, corporation, board or
person. Such writ may be issued when no plain, speedy and adequate remedy exists in the
ordinary course of law. Magistrate judge’s deeds satisfy prohibition criteria.
(4). Respondent cannot and never answer why magistrate judge may openly instruct and
guide Respondent how to file motion to sanction Petitioner and restrict Petitioner’s legal rights,
and make up some false statements against Petitioner and force Petitioner to answer
Respondent’s unilaterally Special Discovery Management Order to help Respondent in
7

violation of 28 U.S.C. § 455 (a) and Federal Rules of Civil Procedure without disqualifying.
Based on the forgoing facts, Respondent’s Brief in Opposition should be disregarded and
ignored by this Court because Respondent fails to respond to Petitioner’s four genuine
questions concerning magistrate judge’s impartiality. Petitioner’s Writ of Prohibition should
be granted. The decisions made by magistrate judge based on her abuse of discretion and
usurpation of judicial authority should be vacated by this Court.
5. Respondent knowingly misleads this Court by distorting Petitioner’s points and factual
evidence.
(1). Petitioner has clearly established four genuine questions concerning magistrate
judge's impartiality. But, Respondent knowingly distorts Petitioner’s points and factual
evidence, and asserts that Petitioner filed the Petition for Writ for Prohibition because
Petition disagreed with magistrate judge’s rulings. Respondent knowingly misleads this Court.
(2). Respondent takes the denial decisions of the Tenth Circuit and the district judge as a
pretext to try to disturb the review of this Court. Petitioner has clearly shown this Court that
the decision made by the Tenth Circuit is wrong. The Tenth Circuit disregarded and ignored
the factual evidence and facts to deny Petitioner’s appeal under the pretext of judicial rulings.
Respondent is using the same pretext to mislead this Court. But, Respondent’s pretext makes
no sense for this Court because Petitioner has clearly shown this Court Petitioner’s points and
factual evidence. Moreover, Respondent even takes false and vague language made by the
Tenth Circuit as a pretext, i.e. so-called “Petitioner ignores the several rulings issued in his
favor. ” to cover that Respondent cannot respond to Petitioner’s points and factual evidence,
which satisfy magistrate judge’s disqualification. This Court can see Petitioner never get any
favor in magistrate judge’s three orders. See APPENDICES “B”, “D”, “E” in the Petition for
Writ of Prohibition.
Moreover, the district judge denied Petitioner’s appeal with the pretext that “Petitioner is
not entitled to choose the judge assigned to the case”, and then directly concluded “Judge
8

Jayne’s decision was not clearly erroneous or contrary to law”, without any causes and facts to
support his decision. See APPENDIX “C” in the Petition for Writ of Prohibition. District
judge’s decision is without base in facts. Therefore, Respondent’s pretext makes no sense to
this Court.
(3) Respondent misleads this Court by using vague words “numerous” and “a lot of” to
assert that Petitioner filed a lot of motions, and sought numerous documents without the base
in facts. This Court can see the motions filed by both parties for discoveiy and order issued by
the district court from the following table.
Motion filed or Order issued:

Dkt. Nos. or Order Nos.

Total Dkt. Nos.
or Order Nos.

By Plaintiff
1. Motions for discovery,
including sanctions

22, 29, 30, 34, 38, 40, 59, 60, 73, 85, 86,
89, 110,127

14

2. Motions for hearing and
Chinese translator

2, 18, 41, 42, 45, 97

6

By Defendant

By the Court

8, 19, 32, 44, 50, 51, 53, 54, 94, 112, 128,
129
9, 10, 11, 14, 21, 23, 37, 43, 46, 47, 55, 58,
61, 69, 70, 71, 81, 82, 83, 90, 91, 92, 93,
95, 108, 115, 130, 132, 136, 137, 138, 139,
140, 141, 142, 143,144, 155___________

12

38

In discovery phase, Petitioner only filed fourteen (14) motions, including sanctions, for
discovery. There are extra six (6) motions only for hearing and Chinese translator. But,
Petitioner’s motions for hearing all are denied by the district court, i.e. the district court did
not make evidential rulings. Respondent filed twelve (12) motions. Except motions for hearing
and Chinese translator, Plaintiff only filed two (2) motions more than those Defendant filed for
discovery. How could Respondent mislead this Court to assert that Petitioner filed a lot of
motions for discovery?
In contrast, there are thirty-eight (38) orders issued by the district court.

9

For Petitioner’s requests for documents, this Court can see from the following table.
Petitioner’s Requests
The first set of RFP.
See Dkt. No. 22, EXHIBIT “1
The second set of RFP, first set of
interrogatories and first set of
requests for admissions. See Dkt.
No. 30, EXHIBITS “1”, “2”, “3”.
The third set of RFP, second set of
interrogatories and second set of
requests for admissions. See Dkt.
No. 60, EXHIBITS “1”, “3”.
The fourth set of RFP, and third
set of interrogatories and third set
of requests for admissions. See
Dkt. No. 86, EXHIBITS “1”, “4”.
The fifth set of RFP

Production of Documents
47
(Only 10 requests granted
after compel. But,
Respondent refused to
produce 7 of them.)

interrogatories Admissions

10
(compel denied)

17

13

8

4

2

2

4

23

19

(compel denied)

6

(compel denied)
8

79

Total Requests

In Petitioner’s first request for Production of documents, Petitioner requested
Respondent to produce forty-seven (47) documents. However, Respondent refused to produce
any documents with the pretext that all documents are privileged documents, or confidential
or protected as trade secret, etc. See Dkt. No. 22, EXHIBIT 1. After Petitioner filed motion for
compel, magistrate judge only granted Petitioner ten (10) requests for production of
documents, i.e. RFP 2, 3, 4, 6, 7, 21, 26, 36, 37, 38. See APPENDIX “D”, al8—a22 in the
Petition for Writ of Prohibition. Further, magistrate judge granted in part for RFP 32, 42, and
RFP 15-19 being limited to two custodians only. But, Respondent did not produce any emails
between two custodians.
However, in the ten granted requests, Respondent refused to produce seven (7) requests
of them, i.e. RFP 2, 3, 4, 6, 7, 21, 26. See Dkt. No. 89. Respondent has been blatantly in
10

contempt of the court without sanctioning. After Petitioner’s first request for production of
documents, Petitioner’s other requests for compel all were denied by magistrate judge. See
APPENDICES “B”, “E” in the Petition for Writ of Prohibition. Plaintiff has only got very
small section of the documents ordered to be produced in this case since October 18, 2019.
Moreover, until now, Petitioner only issued twenty—three (23) requests for interrogatories
and nineteen (19) requests for admissions. Petitioner’s twenty-three (23) interrogatories are
less than twenty-five (25) interrogatories permitted by Fed. R. Civ. P. 33 (a)(1),1 without leave
of the court. Petitioner’s nineteen (19) requests for admissions are less than twenty-five (25)
requests for admissions permitted by Local Rule LCvR36.1,2 without leave of the court.
Magistrate judge abused her discretion to prohibit Petitioner from filing any further discovery
requests in violation of Fed. R. Civ. P. 33 (a)(1) and Local Rule LCvRS6.1, either.
This Court can see that Petitioner never violates Federal Rules of Civil Procedure and
local rules to file a lot of motions and seek numerous documents. Petitioner has shown the facts
and evidence to the district court on December 23, 2020. See Dkt. No. 146. However,
Respondent still uses vague words “numerous” and “a lot of” to mislead this Court. Although
it is not very closely related to the decision of Writ of Prohibition for Respondent to mislead
this Court, Petitioner must show this Court how Respondent uses “vague” words and language
in the case and gets favor from the district court.
Furthermore, magistrate judge violated 28 U.S. Code § 636 (b)(1)(A) to issue preliminary

1 (a) IN GENERAL.
(1) Number. Unless otherwise stipulated or ordered by the court, a party may serve on any other party
no more than 25 written interrogatories, including all discrete subparts. Leave to serve additional
interrogatories may be granted to the extent consistent with Rule 26(b)(1) and (2).
2
LCvR36.1 Admissions.
Without leave of Court or written stipulation of the parties, the number of requests for admissions for
each party is limited to twenty-five (25).

11

injunctions to prohibit Petitioner from issuing any further discovery requests to Respondent.
The discovery in this case has been terminated by magistrate judge’s injunctions. So,
Petitioner cannot get any evidence or documents from Respondent anymore. It’s unbelievable
that Respondent only produced three (3) requests for production of documents ordered by
magistrate judge in this case. Petitioner cannot get any relief from district court and the Tenth
Circuit, or in any other form. It is very necessary and appropriate for this Court to issue the
writ of prohibition to prohibit magistrate judge from Petitioner’s case in any further
proceedings, and vacate the decisions made by magistrate judge based on her abuse of
discretion and usurpation of judicial authority.

CONCLUSION
Respondent is blatantly in contempt of this Court and the lower courts by concealing
Respondent’s two parent corporations. Respondent and Respondent’s counsels should be
sanctioned by this Court.
Moreover, Petitioner cannot attain relief from the lower courts, or in any other form. It is
necessary and appropriate for this Court to issue a writ of prohibition directing magistrate
judge Jodi F. Jayne to be prohibited from Petitioner’s case in any further proceedings.
Petitioner’s Writ of Prohibition should be granted by this Court.

Respectfully submitted,

Date: May 14, 2021
12

Case 4:19-cv-00554-JFH-JFJ Document 7 Filed in USDC ND/OK on 11/25/19 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
Bo Zou,
Plaintiff
vs.
Linde Engineering North America, Inc.,
Defendant.

§
§
§
§
§
§
§
§
§
§

NO. 4:19-CV-00554-JED-JFJ

DEFENDANT’S CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 7.1 of the Federal Rules of Civil Procedure, Defendant Linde Engineering
North America, Inc. (“Defendant”), states that it is a wholly-owned subsidiary of Linde Holdings,
LLC. There is no publicly held corporation or company that owns 10% or more of Defendant’s
or Linde Holdings, LLC’s stock.

APPENDIX "F"
Defendant’s Corporate Disclosure Statement - Page 1

a32

Case 4:19-cv-00554-JFH-JFJ Document 7 Filed in USDC ND/OK on 11/25/19 Page 2 of 3

Dated:

November 25, 2019

Respectfully submitted,

/s/ Jonathan G. Rector
Jonathan G. Rector
OBANo. 30691
L1TTLER MENDELSON, P.C.
A Professional Corporation
2001 Ross Avenue
Suite 1500, Lock Box 116
Dallas, TX 75201
214.880.8100
214.880.0181 (Fax)
And
Jessica L. Craft
OBA No. 31126
LITTLER MENDELSON, P.C.
A Professional Corporation
1301 McKinney Street, Suite 1900
Houston, TX 77010
713.951.9400
713.951.9212 (Fax)
ATTORNEYS FOR DEFENDANT
LINDE ENGINEERING NORTH
AMERICA, INC.

Defendant’s Corporate Disclosure Statement - Page 2

a33

Case 4:19-cv-00554-JFH-JFJ Document 7 Filed in USDC ND/OK on 11/25/19 Page 3 of 3

CERTIFICATE OF SERVICE
This is to certify that on November 25, 2019, the undersigned filed the foregoing using the
Court’s CM/ECF system which will send notification of such filing to the appropriate CM/ECF
participants. Additionally, the undersigned mailed a copy via U.S. mail, postage prepaid, to the
following address for the pro se Plaintiff:
Bo Zou
3101 Townbluff Drive, No. 322
Plano, TX 75075
Pro Se Plaintiff

/s/ Jonathan G. Rector
Jonathan G. Rector
Jessica L. Craft
4837-5571-7292.1 104712.1001

Defendant’s Corporate Disclosure Statement - Page 3

a34

5/13/2021

Document

EX-21.01 3 lindeplc-2020123 lex2101.htm EX-21.01

SUBSIDIARIES OF LINDE PLC
Linde pic and Subsidiaries
EXHIBIT 21.01
The following is a list of the Linde pic's subsidiaries as of December 31,2020.

.

Linde ole Subsidiaries
10 Riverview Drive LLC
[AB Held
African Oxygen Limited_________________
(African welding company (Pty) Ltd
AFROX - Africa Oxigenio, Limitada
(AFROX (LESOTHO) (PTY) LTD
AFROX (PROPRIETARY) LIMITED
[AFROX AFRICAN INVESTMENTS (PTY) LIMITED
AFROX GAS & ENGINEERING SUPPLIES (BOTSWANA) (PTY) LIMITED
(AFROX INTERNATIONAL LIMITED
Afrox Malawi Limited
|Afrox Mocambique, Limitada
AFROX PROPERTIES (PTY) LIMITED
[AFROX ZAMBIA LIMITED
AGA Fastighet Goteborg AB__________
[AGA International Investment Aktiebolag
Agatronic AB______________________
(Agua y Gas de Sillunchi S.A.__________
AHP Alliance of Columbia
AHP Delmarva, LLP
AHP Home Care Alliance of Gainesville
[AHP Home Care Alliance of Tennessee
AHP Home Care Alliance of Virginia
[AHP Home Medical Equipment Partnership of Texas
AHP Knoxville Partnership
fAHP-MHR Home Care. LLP
AIRCO COATING TECHNOLOGY LIMITED
[AIRCO PROPERTIES INC
ALBOC (JERSEY) LIMITED
[ALLWELD INDUSTRIAL AND WELDING SUPPLIES LIMITED
ALPHA RESPIRATORY INC.
[AMALGAMATED GAS AND WELDING (PTY) LIMITED
AMALGAMATED WELDING AND CUTTING HOLDINGS (PROPRIETARY)
LIMITED_________________________________________________________
[American HomePatient Arkansas Ventures, Inc.
American HomePatient of Kingstree, LLC
[American HomePatient of New York, Inc.
American HomePatient of Sanford, LLC
(American HomePatient of Texas, LLC
American HomePatient of Unifour, LLC
[American HomePatient Tennessee Ventures, Inc.
American HomePatient Ventures, Inc.
[American HomePatient, Inc.

APPENDIX "G"
https://www.sec.gOv/Archives/edgar/data/1707925/000162828021003574/lindeplc-20201231ex2101.htm

Place of Incorporation
Delaware
Sweden'
South Africa
South Africa'
Angola
Lesotho^
South Africa
South Africa!
Botswana
Mauritius!
Malawi
Mozambique]
South Africa ■
Zambia!
Sweden
Sweden]
Sweden
Ecuador
South Carolina
Maryland;
Florida
Tennessee^
Virginia
Texas1
Tennessee
Nebraska]
United Kingdom
Delaware;
________ Jersey
United Kingdom]
Delaware
South Africa]
South Africa
Delaware
South Carolina
New York'
North Carolina
Texas;
North Carolina
Delaware
Tennessee
Nevadai

a35
1/14

5/13/2021

Document

(Linde Engineering APAC Co., Ltd.
Linde Engineering India Private Limited
(Linde Engineering Middle East LLC
—;> Linde Engineering North America LLC
(Linde Engineering South Africa (Pty) Ltd.
—^ Linde Engineering US LLC
(Linde EOX Sdn. Bhd.
LINDE FINANCE
|Linde Finance B.V.
Linde France S.A.
Linde Gas (H.K.) Limited
Linde Gas a.s.
(Linde Gas A/S
Linde Gas AB
(Linde Gas Algerie S.p.A.
LINDE GAS AS
(Linde Gas Asia Pte Ltd
Linde Gas Belgium NV
(Linde Gas Benelux B.V.
Linde Gas Bulgaria EOOD
(Linde Gas Chile S.A.
Linde Gas Cryoservices B.V._______
Linde Gas Curacao N.V.___________
LINDE GAS DOMINICANA, S.R.L.
|Linde Gas ehf.
LINDE GAS ESPANA SOCIEDAD ANONIMA
(Linde Gas GmbH
LINDE GAS HOLDINGS LIMITED
iLinde Gas Italia S.rL

LINDE GAS MIDDLE EAST LLC
(Linde Gas Ningbo Ltd.
Linde Gas North America LLC
(Linde Gas Products Malaysia Sdn. Bhd.
Linde Gas Produktionsgesellschaft mbH & Co. KG
Linde Gas s. r. o.
Linde Gas Shenzhen Ltd.
(Linde Gas SIA
Linde Gas Singapore Pte. Ltd.________________
(Linde Gas Southeast (Xiamen) Ltd.____________
LINDE GAS SRBIJA Industrija gasova a.d. BeCej
|Linde Gas Therapeutics Benelux B.V.__________
Linde Gas Therapeutics GmbH_______________
ILinde Gas Tunisie S.A.______________________
Linde Gas UAB
(Linde Gas Verwaltungs GmbH
Linde Gas Vietnam Limited
(Linde Gas Xiamen Ltd.
Linde Gas Zhenhai Ltd.
(Linde Gases (Changzhou) Company Limited

China;
India
United Arab Emirates;
Delaware
South Africa
Delaware
Malaysia!
United Kingdom
Netherlands!
France
Hong Kong;
Czech Republic
Denmark!
Sweden
Algeria;
Norway
Singapore
Belgium
Netherlands;
Bulgaria
Chile1
Netherlands
Curacao'
Dominican Republic
Iceland
Spain
Austria!
United Kingdom
______________Italy]
United Arab Emirates
China]
Delaware
Malaysia^
Germany
Slovakia
China
Latvia!
Singapore

China;
Serbia
Netherlands!
Germany
Tunisia]
Lithuania
Germany]
Vietnam
China]
China
China]

a36
https://www.sec.gov/Archives/edgar/data/1707925/000162828021003574/lindeplc-20201231ex2101.htm

7/14

■Case 4:19-cv-00502-jED-jFj Document 8 Filed in USDC ND/OK on 12/17/19 Page 1 of 3

United States District Court
NORTHERN DISTRICT OF OKLAHOMA
1. ANGELA GILMORE
Plaintiff(s)
Case Number: 19-CV-502-JED-JFJ

vs.
2. LINDE ENGINEERING NORTH A
Defendant(s)

CORPORATE DISCLOSURE STATEMENT
Pursuant to Fed.R.Civ.P. 7.1, which states:
A nongovernmental corporate party to an action or proceeding in a district court must file
a statement that identifies any parent corporation and any publicly held corporation that
owns 10% or more of its stock or states that there is no such corporation.

LINDE ENGINEERING NORTH AMERICA, INC.

[name of party]
who is a (check one)

1.

0 PLAINTIFF

in this action, makes the following disclosure:

Is party a publicly held corporation or other publicly held entity?
(Check one)

2.

0 DEFENDANT

□ YES

0 NO

Does party have any parent corporations?
(Check one)

[7] YES

□ NO

If YES, identify all parent corporations, including grandparent and great-grandparent corporations:
LINDE HOLDINGS LLC
LINDE ENGINEERING US LLC
LINDE PLC

3.

Is 10% or more of the stock of party owned by a publicly held corporation or other publicly held
entity?
(Check one)

□ YES

0 NO

If YES, identify all such owners:

APPENDIX "H"
Corporate Disclosure Statement

a37
CV-24 (04/07)

Case 4:19-cv-00502-JED-JFJ Document 8 Filed in USDC ND/OK on 12/17/19 Page 2 of 3

4.

Is there any other publicly held corporation or other publicly held entity that has a direct
financial interest in the outcome of the litigation?
(Check one)

□ YES

[7] NO

If YES, identify entity and nature of interest:

5.

Is party a trade association?
(Check one)

□ YES

[7] NO

If YES, identify all members of the association, their parent corporations, and any publicly held
companies that own 10% or more of a member’s stock:

DATED this 17th

day of December

, 2019 .
/s/ Christopher S. Thrutchley
Signature

Christopher S. Thrutchley

15859

Printed Name

Bar Number

GableGotwals
Firm Name

100 W. 5th Street, Ste. 1100
Address

OK

Tulsa
City

(918) 595-4800
Phone

State

74103-4217
ZIP

(918) 595-4990
Fax

cthrutchley@gablelaw.com
Email Address

a38
Corporate Disclosure Statement

2

CV-24 (04/07)

•Case 4:19-CV-00502-JED-JFJ Document 8 Filed in USDC ND/OK on 12/17/19 Page 3 of 3

CERTIFICATE OF SERVICE
I hereby certify that on December 17, 2019
(Date), I electronically transmitted the foregoing document to
the Clerk of Court using the ECF System for filing and transmittal of a Notice of Electronic Filing to the following ECF
registrants (names only are sufficient):
Charles C. Vaught, cvaught@a-vlaw.com
Jessica N. Vaught, jvaught@a-vlaw.com

I hereby certify that on

(Date), I served the same document by

I I U.S. Postal Service

I

I | Courier Service

□ E-Mail

I In Person Delivery

on the following, who are not registered participants of the ECF system:

Name(s) and Address(es):

None, all parties are registered participants of the ECF system.

/s/ Christopher S. Thrutchley
Signature

a39
Corporate Disclosure Statement

3

CV-24 (04/07)

